Date: July 7, 2000
Audit Report No. 00-026


Audit of the Division of Compliance
and Consumer Affairs’ Community
Reinvestment Act Examination Process
                       TABLE OF CONTENTS


BACKGROUND                                               1

OBJECTIVES, SCOPE, AND METHODOLOGY                       4

RESULTS OF AUDIT                                         4

ENHANCED PROCEDURES WOULD HELP TO ENSURE CONSISTENT
PRESENTATION OF INFORMATION IN THE CRA PERFORMANCE
EVALUATIONS                                              5

     Recommendation                                     10

MORE COMPARATIVE AND ANALYTICAL DATA WOULD HELP TO
BETTER EXPLAIN THE BASIS FOR EXAMINERS’ CONCLUSIONS
AND RATINGS                                             11

     Recommendations                                    13

CONTROLS OVER CRA EXAMINATIONS NEED TO BE ENHANCED      14

     Recommendations                                    16

CORPORATION COMMENTS AND OIG EVALUATION                 16

APPENDIX I - TABLE: COMMUNITY REINVESTMENT ACT
             PERFORMANCE EVALUATION CRITERIA            18

APPENDIX II - TABLE: DESCRIPTION OF AUDIT SAMPLE AND
              1998 CRA EXAMINATION RATINGS              19

APPENDIX III - CORPORATION COMMENTS                     20

APPENDIX IV - MANAGEMENT RESPONSES TO RECOMMENDATIONS   22
Federal Deposit Insurance Corporation                                                         Office of Audits
Washington, D.C. 20434                                                            Office of Inspector General

   DATE:                         July 7, 2000

   MEMORANDUM TO:                Stephen M. Cross, Director
                                 Division of Compliance and Consumer Affairs

   FROM:                         David H. Loewenstein
                                 Assistant Inspector General

   SUBJECT:                      Audit of the Division of Compliance and Consumer Affairs’
                                 Community Reinvestment Act Examination Process
                                 (Audit Report No. 00-026)

   The Federal Deposit Insurance Corporation’s (FDIC) Office of Inspector General has completed
   an audit of the Community Reinvestment Act (CRA) examination process as conducted by the
   Division of Compliance and Consumer Affairs (DCA). We performed this audit to determine
   whether DCA consistently applies CRA examination procedures within and among its regional
   offices and whether these procedures are applied in a manner that ensures the resulting ratings
   provide an accurate measure of the banks’ performance.

   We found that DCA’s examination procedures do not provide specific guidance in some critical
   areas of the evaluation process in which we believe consistency is vital. Consequently, CRA
   examination procedures are not consistently applied by examiners within and among regional
   offices. We also found that the CRA Performance Evaluation reports (PE reports) do not
   comprehensively identify the credit needs of the communities in which the banks are operating.
   Additionally, the PE reports do not consistently include the types of comparative and analytical
   data in the analyses of the banks’ small business lending performance that would enable the
   reader to understand the basis for the examiners’ conclusions. As a result of the lack of
   information related to the credit needs of the community and small business lending data, it is
   difficult to determine if the resulting ratings provide an accurate measure of the banks’
   performance. In addition, we determined that internal control procedures over the CRA
   examination review process and workpaper maintenance need to be enhanced to ensure
   consistent presentations of CRA data and complete analyses to support the examiners’
   conclusions.

   We also concluded that DCA generally conducted Community Reinvestment Act (CRA)
   performance evaluations in accordance with the FDIC CRA-related policies and procedures. We
   noted several instances where examiners did not fully adhere to the procedures; because these items
   were not significant, they will be addressed in a separate management letter.

   BACKGROUND

   The Division of Compliance and Consumer Affairs (DCA) performs Community Reinvestment
   Act (CRA) examinations on all non-member state banks as a part of the compliance examination
   process. The required frequency of CRA examinations depends on a bank’s size and previous
ratings. Unlike the reports that are prepared for compliance examinations, each bank must make
its CRA PE report available to the public. CRA evaluations are used by the FDIC and the public
to assess how a bank meets the lending, investment, and service needs of the community it
serves. In addition, the FDIC can use the CRA ratings as a factor in considering various bank
applications.

Regulatory Requirements

The Community Reinvestment Act was enacted as Title VII of the Housing and Community
Development Act of 1977, 1 and applies to all regulated federally-insured financial institutions,
excluding credit unions. The FDIC is responsible for evaluating the CRA activities of insured,
state-chartered, non-member financial institutions. The FDIC Division of Compliance and
Consumer Affairs (DCA) was established in 1994, and is responsible for evaluating the CRA
performance of FDIC-supervised banks through its CRA examination process.

In 1995, the federal banking agencies (FDIC, Federal Reserve System, and Office of the
Comptroller of the Currency), and the Office of Thrift Supervision jointly amended their
regulations implementing CRA. The regulations were amended to emphasize performance rather
than process, promote consistency in evaluations, and eliminate unnecessary burden. The
amended rules focus on assessing how banks meet the lending, investment, and service needs of
the communities where they accept deposits and require that examinations focus on tangible
performance-based results rather than on procedures.

The regulatory agencies published uniform interagency CRA examination procedures on
November 13, 1995. Under these procedures, each bank has the option of being evaluated under
the standard assessment method, or based upon the bank’s own CRA strategic plan. For large
banks (with assets of $250 million or more, or belonging to a holding company with $1 billion
or more in assets), the standard assessment method includes an evaluation of a bank’s lending,
investment, and service performance in the communities and neighborhoods in which it operates.
For small banks, the assessment method only focuses on evaluating a bank’s lending
performance in its local community. The examination procedures for small banks went into
effect on January 1, 1996, and the procedures for large banks went into effect on July 1, 1997.
Appendix I details the CRA performance evaluation criteria.

Under CRA, all regulated financial institutions have a continuing and affirmative obligation to
help meet the credit needs of their entire communities, including low- and moderate-income
neighborhoods, consistent with safe and sound operations. The regulated financial institutions
are required to demonstrate to their primary regulators that their deposit facilities serve the

1
  The Community Reinvestment Act was amended by the Gramm-Leach-Bliley Act of 1999 (the Act) to, among
other things: prohibit financial holding companies from being formed unless their insured institutions receive and
maintain a satisfactory CRA rating; require public disclosure of bank/community CRA-related agreements; and grant
some regulatory relief to small institutions by reducing the frequency of their CRA examinations if they have
received Outstanding or Satisfactory ratings. As a result of the Act, financial institutions with aggregate assets of not
more than $250 million are subject to routine examination no more frequently than every 60 months for institutions
rated Outstanding, every 48 months for institutions rated Satisfactory, and as often as deemed necessary by the
appropriate federal banking agency for institutions rated less than Satisfactory.



                                                           2
convenience and needs of the communities in which they operate. The convenience and needs of
the communities include the need for credit services as well as deposit services. Although CRA
encourages federally-insured financial institutions to lend in the entire community, including
low- and moderate-income neighborhoods, the banks are not required to extend high-risk loans
that jeopardize the banks’ safety. Furthermore, there are no CRA provisions with which the
banks must comply other than data reporting requirements. Consequently, the federal banking
agencies do not have any enforcement powers covering CRA activities. However, CRA requires
that the federal bank regulatory agencies evaluate institutions' CRA performance, and requires
that these evaluations be disclosed to the public and considered by the agencies in reviewing
bank applications for new locations, acquisitions, mergers, etc.

Also, CRA requires large institutions to maintain and submit data related to lending to small
businesses and small farms. For the purposes of CRA evaluations, banks are also required to
comply with Home Mortgage Disclosure Act 2 reporting requirements.

CRA Evaluation Process

DCA examiners generally perform CRA evaluations as a part of the compliance examination
required of non-member state banks. DCA estimates that examiners spend approximately 49
hours on average conducting a CRA evaluation, a process that can include evaluating as many as
15 separate performance criteria. Examiner judgment is a vital part of assessing a bank’s
performance in relation to a community’s needs and the performance of comparable institutions
serving the same or similar communities.

As noted in Appendix I, CRA evaluations consist of analyses of the lending, investment, and
service performance of large banks, as it relates to low- and moderate-income areas and
households. For small banks, only the lending test is required. The lending test, which is
common to both large and small bank evaluations, involves the compilation and analysis of a
bank’s mortgage, small business, small farm, and/or consumer lending data, based on the
composition of the bank’s loan portfolio. The lending performance is then compared to the
lending opportunities and loan demand in the area in which the bank is operating and to the
lending performance of other similar banks in the area. In addition, large bank CRA evaluations
include analyses of the types of investments made in the community and the retail banking
services provided in low- and moderate-income areas. The results of the analyses are reported to
regulators and to the public through CRA Performance Evaluation reports, which banks must
make available to the public upon demand.




2
  The Home Mortgage Disclosure Act (HMDA) requires banks located in metropolitan statistical areas to collect
data regarding applications for, and originations and purchases of, home purchase and home improvement loans,
including refinancings of both, for each calendar year. Within 30 calendar days after the end of each calendar
quarter, these transactions must be recorded on a loan application register in the format prescribed by the law.
HMDA data is used by examiners to assess the mortgage lending activities of banks during CRA performance
evaluations. The federal banking agencies have the authority to enforce compliance with the provisions of HMDA.


                                                        3
OBJECTIVES, SCOPE, AND METHODOLOGY

We performed an audit of the CRA examination process to determine (1) whether DCA
consistently applies CRA examination procedures within and among its regional offices and (2)
whether these procedures are applied in a manner that ensures the resulting ratings provide an
accurate measure of the banks’ performance.

To accomplish the audit objectives, we reviewed large and small bank CRA performance
evaluations started between January 1, 1998 and December 31, 1998 on 57 banks ranging in
asset size from $10 million to $4 billion. During 1998, DCA started 1,983 CRA examinations,
with 98% of the banks receiving ratings of Outstanding or Satisfactory. Appendix II provides a
description of the universe of 1998 CRA examinations and our audit sample.

Our audit work included reviewing DCA policies and procedures, CRA Performance Evaluations
for 57 FDIC-supervised institutions, and a sample of CRA examination workpapers. In addition,
we discussed the process for conducting CRA performance evaluations with DCA officials in the
headquarters office, as well as regional management and examiners in the Boston, Chicago, and
Memphis Regional Offices. We also discussed the availability of demographic data with
Division of Insurance (DOI) representatives at both the regional and headquarters levels. We
reviewed the FDIC Compliance Examination Manual and supplemental policy memos to identify
the procedures related to CRA examinations, including but not limited to pre-examination
planning, onsite examination procedures, sample and data verification requirements, and related
workpaper requirements. Our fieldwork also included a review of CRA regulations and
comparisons of the regulations to DCA policies and procedures.

We obtained CRA examination hours and summary information from the Compliance Statistical
System (DCA's examination tracking system). We also obtained copies of CRA Performance
Evaluations from the DCA CRA Performance Database, and ratings summaries from the DCA
Management Reporting System. We did not test the reliability of these systems as a part of this
audit. The audit was conducted in accordance with generally accepted government auditing
standards for performance audits. We conducted our fieldwork from April 1999 through March
2000.

RESULTS OF AUDIT

We found that specific guidance is needed in a number of critical aspects of the CRA
performance evaluation to ensure consistency in the analysis and presentation of data. One of the
most critical needs for specific guidance is in the presentation of a bank’s loan portfolio, the basis
for much of the evaluation process. We found inconsistencies in and among regional offices in
how loan products are grouped and identified in CRA performance evaluation reports (PE
reports). In turn, this leads to concerns about how examiners select loan products for analysis.
We also identified differences in how examiners present assessment area loan concentrations and
small business analyses. We understand that examiner judgment plays a vital part in the
evaluation process; however, the consistency of the application of procedures is essential in
ensuring that appropriate analyses are conducted and that the presentation of data in PE reports is
consistent.



                                                  4
We also found that the inclusion of more comparative and analytical data in the PE reports is
needed to better explain the basis for examiners’ conclusions and ratings. The PE reports in our
sample do not consistently identify the credit needs of the communities in which the banks are
located, although FDIC procedures require examiners to conduct community contacts with local
community groups, government entities, financial intermediaries, civil rights groups, consumer
rights groups, or business and labor groups. We also found that the PE reports do not
consistently include the types of comparative and analytical data in the small business lending
analyses that would enable the reader to understand how an examiner reached his/her
conclusions. As a result, it is difficult for the reader to determine the credit needs of the
community and, therefore, whether the resulting ratings provide an accurate measure of a bank’s
performance in meeting these needs.

In addition, we believe the internal controls related to the supervisory review of PE reports and
workpaper requirements need to be enhanced. Currently there are no comprehensive
requirements for reviews of PE reports or for the maintenance of supporting workpapers.
Although CRA examination procedures require that the PE reports be written in a manner that
supports the conclusions in the reports, enhanced controls are needed to ensure that the
appropriate data was used, thorough analyses were conducted, and proper support for conclusions
and ratings is maintained.

ENHANCED PROCEDURES WOULD HELP TO ENSURE CONSISTENT
PRESENTATION OF INFORMATION IN THE CRA PERFORMANCE
EVALUATIONS

CRA examination procedures are designed to test a bank’s performance in meeting the lending,
investment, and service needs of communities in which the banks are operating and require
examiners to focus on tangible performance-based results. We found that the FDIC examination
procedures do not provide specific direction to examiners in several areas, allowing examiners so
much flexibility that performance tests are inconsistently applied among regional offices and
even among field offices within a single region. Within the PE reports, we identified significant
differences in how examiners:

   •   describe the bank loan portfolio;
   •   justify the selection of various loan portfolio assets chosen for analysis;
   •   present assessment area residential and small business loan concentrations; and
   •   present small business lending analyses.

The flexibility given to examiners results in reports that are inconsistent and that could give the
public a misperception of a bank’s performance. Although the CRA procedures are designed to
allow for examiner judgment, we believe there are certain areas that should be handled
consistently among regional and field offices. We also believe this consistency will provide the
public with a clearer assessment of bank performance.




                                                 5
Description of Bank Loan Portfolio

The process of selecting loan products for analysis begins with the examiner’s description of a
bank’s loan portfolio. Examiners use data from standard Call Reports submitted to the FDIC by
all insured institutions, but there is no guidance on how the data is to be presented in the PE
report. The CRA performance evaluation procedures instruct examiners to list the primary types
of loans by name and percentage of dollar volume or to include a table if there is a large volume
of products.

We found that the methods used to describe bank loan portfolio assets varied within and among
the three regional offices we reviewed. All of the PE reports we reviewed contained a
description of the composition of the loan portfolio in some format. However, we found that in
24 cases (11 large bank PE reports and 13 small bank PE reports), the examiners combined the
values from two or more loan portfolio asset types and represented them as one value in the PE
report. In 19 of these cases (8 large and 11 small), the PE reports did not explain which Call
Report asset types were grouped and labeled as one category in the PE report.

The following examples demonstrate the various ways examiners grouped loans in the PE
reports we reviewed:

   •   In one PE report, “Mortgage Loans” included all loans for construction and development,
       commercial real estate, multifamily residential, 1-4 family residential, home equity, and
       farm land. Farm loans were included with “Consumer and Other Loans.”
   •   In a second PE report, farm land and farm loans were combined and reported as
       “Agricultural” loans. Only 1-4 family residential loans were reported as “Residential
       Real Estate.” Commercial real estate, commercial and industrial loans, and multifamily
       residential real estate loans were combined and reported as “Commercial” loans.
   •   In a third PE report, “Residential Mortgage” loans included construction and
       development, commercial real estate, and farm land loans.

These are but three examples of the various ways examiners combined Call Report data for
inclusion in the PE reports. The resulting presentation of loans in the PE reports served as the
basis for selection of loan products for analysis. We believe that the inconsistent grouping of
loan products from the Call Report—particularly residential mortgage and farm lending—can
result in analyses that distort the analysis of a bank’s performance under CRA.

We found that in one regional office we reviewed, examiners did not combine loan products for
presentation in the PE report. In this region, examiners presented loan data in the PE exactly as
reported by banks in Call Reports. Call Report data is defined so that banks report consistent
information. Without further guidance on combining loan products, we believe this is a better
method of presenting a bank’s loan portfolio.

We believe consistent presentation of data is needed to avoid confusing readers when PE reports
are made public and would be beneficial when FDIC uses the CRA ratings to evaluate banks’
applications for new locations, acquisitions, mergers, etc.




                                                 6
Selection of Loan Portfolio Assets for Analysis

In reviewing our sample of CRA evaluation reports and Call Report data, we found that
examiners generally selected the largest loan group by dollar volume for the lending
performance analysis. As explained in the previous section, examiners combine various asset
types shown in Call Reports into a single category for analysis. Consequently, examiners can
determine the size of a loan category, thereby influencing whether or not it is reviewed as part of
the CRA performance evaluation.

DCA small bank risk-scoping examination procedures require examiners to limit the sampling
universe to no more than two loan products. The guidelines further state that if a loan group is
omitted from the analysis, the rationale for omitting it is required in the PE. The large bank CRA
examination procedures state that “Whenever two or more product lines represent similar
percentages of the portfolio or of originations and the examiner elects to evaluate the bank on
only a portion of these product lines, the rationale for selecting one product line over another
should be discussed in the public evaluation.”

During our review of the PE reports and Call Report data for the banks in our sample, we
determined that the rationale for selecting and reviewing certain loan products was not always
included in the PE. Specifically, we found that out of the 57 banks in our sample:

   •   4 PE reports provided reasons for the exclusion of certain loan products from the
       examiners’ analyses;
   •   1 PE stated that the largest loan group was used; and
   •   1 PE stated that the product selection was based on the volume of originations.

Other than these six reviews, we consistently found that the PE reports did not explain the
rationale for selecting one product line over another for analysis.

DCA examiners generally selected the largest loan group by dollar volume for the lending
performance analysis. However, according to DCA guidance, consideration should be given to
the current lending activities in the institution, and recognition should be given when institutions
have shifted emphasis in lending patterns. Consequently, it may be more reasonable to analyze
the loan category with the largest growth and most activity, even if it was not the largest loan
category.

Presentations of Assessment Area Loan Concentrations

During the performance evaluation, examiners are required to identify the concentration of bank
loans within and outside its assessment area for each loan type selected for evaluation. However,
the examination procedures are not specific as to how this data should be calculated and
presented.

In identifying the concentration of the bank’s loan products within and outside of its assessment
area, FDIC Compliance Examination Manual procedures for large and small bank PEs require
examiners to identify the dollar amount and number of each loan type under evaluation. In


                                                 7
addition, the large bank procedures require the examiner to calculate the percentages of
concentration both within and outside of the assessment area for each loan type. Examiner
discretion can be exercised to summarize the different product lines into a single ratio provided
the ratio does not disguise substantive or relevant differences between the loan products.

Because examination policies allow examiners to determine the method of presentation for
assessment area loan concentrations, there are inconsistencies not only between regions, but
within regions as well. In our sample we found:

   •   For large banks, 15 of the 25 PE reports provided separate percentages for lending related
       to residential and small business loans, 4 provided one total percentage for both loan
       categories, and 6 PE provided both separate and combined percentages.
   •   For small banks, 11 of 32 PE reports provided separate percentages for lending related to
       residential and small business loans, 18 provided one total percentage for both loan
       categories, and 3 provided both separate and combined percentages.

These varying presentations of the data from the assessment area lending analyses do not provide
consistent information to the public. In addition, in instances where only the combined
percentages are shown, the reader is unable to discern the actual dispersion of the evaluated loan
types within the assessment area. We believe that a presentation showing both separate
percentages for residential and small business loans and an aggregate percentage for all loan
categories is more informative and better serves the public interest by providing a more accurate
picture of the bank's lending efforts.

Small Business Lending Presentations Were Inconsistent

CRA performance evaluation procedures do not provide specific criteria for when small business
and farm lending analyses should be conducted, and to what extent. As a result, analyses are not
always conducted even when the commercial lending activities, including small business and
farm loans, appear to be material to the bank’s portfolio. Moreover, the content of the small
business and farm lending analyses varies among PE reports and does not always provide enough
information to support the examiner’s findings.

Criteria for Small Business and Farm Loan Analysis

One of the primary criteria for evaluating both small and large bank CRA performance is the
level of lending to small businesses and farms of different sizes. FDIC regulations define small
business and small farm loans as loans secured by non-farm nonresidential property where the
original amount of the loan is $1 million or less, if a business loan, or $500,000 or less, if a farm
loan.” The Large Bank Reference Guide (dated December 19, 1997) states that examiners
should generally include all business and farm loans originated during the reporting period when
analyzing small business and farm loans, since the data are collected and reported by the
institution.




                                                  8
We found that examiners at different field offices and regions are handling small business/farm
lending differently during the CRA evaluations. The following examples demonstrate two of the
ways examiners view these types of loans during examinations:

   •   For one small bank, the PE did not contain a separate review of farm loans or show farm
       loans as a percentage of the total portfolio. As detailed in the PE, real estate loans totaled
       63% of the total portfolio, with the remainder in consumer loans (17%), commercial
       loans (11%), and all other loans (9%). Based on our calculations from the bank’s Call
       Report dated June 30, 1998, farm-related credits accounted for 20% of the total portfolio.
       The farm real estate loans were grouped with and analyzed as a part of real estate loans.
   •   In a second small bank PE, the PE did not contain an analysis of the small farm lending
       although farm loans represented 50% of the bank’s loan portfolio. The lending review
       included samples of residential loans, commercial loans, and consumer loans representing
       24%, 10%, and 15% of the portfolio, respectively. No sample was taken of farm loans,
       and, therefore, no analysis was done of small farm lending.

CRA examination procedures do not provide guidance to examiners for determining when to
conduct a separate analysis of small business and farm lending. As a result, small business and
farm loans are sometimes overlooked in the CRA reviews.

Format of Data Contained in Small Business Analyses

In reviewing the PE reports, we found that the presentations of small business data related to the
size of the loans and business revenues were inconsistent. The FDIC Compliance Examination
Manual lists the following factors that examiners should consider when evaluating small
business and farm lending within an area according to borrower characteristics:

   •   Number and dollar volume of small loans originated to small businesses or farms by loan
       size of less than $100,000; at least $100,000 but less than $250,000; and at least $250,000
       but less than or equal to $1,000,000.
   •   Number and dollar amount of small loans to small businesses or farms that had annual
       revenues of less than $1 million compared to the total reported number and dollar amount
       of loans to businesses or farms.

In the analysis of small business and farm lending, the Large Bank Reference Guide (dated
December 19, 1997) states that examiners should consider both the size of the loan and the level
of gross annual revenues of the small businesses. The Guide describes as a weakness, PE reports
that do not provide an analysis of small business loans by loan size. The Guidance for Small
Bank Public Evaluations (dated October 29, 1996) does not require the use of loan sizes in the
analysis of small business and farm lending. The guidance states that the loan sizes can be used
as a proxy when the data needed to do a distribution analysis is not available in the loan files.

The CRA regulation specifies that analyses of banks’ lending performance related to borrower
characteristics will include the number and amount of small business and farm loans to
borrowers with gross revenues of $1 million or less. The regulation does not specifically state
how this distribution should be detailed. The DCA Large Bank Reference Guide states that


                                                 9
“Since institutions are only required to indicate whether a small business or farm has annual
gross revenues of $1 million or less, it is necessary to use sampling procedures in order to further
stratify income levels.”

In assessing a bank’s small business lending by loan size and by the revenue size of the
borrowers, many of the PE reports presented just 2 broad categories of small business lending
data. Specifically:

   •   For the 57 banks in the sample, 6 of the 25 large bank PE reports, and 26 of the 32 small
       bank PE reports grouped small business loan sizes into only two broad categories of
       under and over $1 million.
   •   In 18 large bank PE reports and 6 small bank PE reports, business revenue breakdowns
       were labeled according to two broad categories: less than $1 million and greater than $1
       million. A detailed breakdown of the various revenue sizes within the less than $1
       million range was not provided.

However, there were 19 large bank PE reports and 6 small bank PE reports in our sample that
further stratified small business loans and borrower revenues into various subgroups, such as:
(1) less than $100,000; (2) $100,000 to $249,000; and (3) $250,000 to $1,000,000. This
breakdown gives a much better representation of the number and amount of loans that are
extended to small businesses and farms. The needs and repayment capabilities will vary even
among various subgroups of small businesses and farms, and an accurate assessment of how the
bank meets those needs is imperative.

The guidance for both large and small banks does not specifically require the breakdown of the
various revenue categories for small businesses with income of less than $1 million. Although
the Large Bank Reference Guide does advise examiners to categorize small businesses by loan
size, this still does not provide an adequate assessment of the size of the businesses requesting
the loans. The grouping of loans into two large revenue categories does not convey an accurate
picture of how the bank is meeting the credit needs of small businesses and farms. Among small
businesses, the credit needs are different and the repayment capabilities will vary. However,
when the business revenues and corresponding loan amounts are categorized into several
categories less than $1 million, this provides a more realistic picture of the size of businesses
serviced by the bank and their individual credit needs. Although not required, providing
additional guidance addressing these areas would improve the consistency of data presentations
and be more informative to the public.

Recommendation:

Although examiner judgment is necessary in all CRA evaluations, some aspects of the CRA
examination guidance need to be more specific. Examiner judgment should be eliminated in
those areas that could result in inconsistent CRA evaluations. Therefore, to further ensure that
CRA evaluation reports fully support the ratings given to institutions, we recommend that the
Director, DCA:




                                                10
(1) Provide guidance to examiners that results in consistent examination procedures and reports
    in the areas related to: description of bank assets and selection of loan products for analysis;
    presentation of assessment area loan concentrations; and presentation of small business
    analyses.

MORE COMPARATIVE AND ANALYTICAL DATA WOULD HELP TO BETTER
EXPLAIN THE BASIS FOR EXAMINERS’ CONCLUSIONS AND RATINGS

We found that the CRA performance evaluation reports (PE reports) do not comprehensively
identify the credit needs of the communities in which the banks are operating. Also, the PE
reports do not consistently provide comparative and analytical data when discussing the
institutions' small business lending activities. By identifying the credit needs of the community
and consistently including comparative and analytical data in the evaluation of an institution,
DCA can assure the public that performance has been measured relative to the credit
opportunities within the community and the bank’s responsiveness to those opportunities.

Use of Community Contacts to Identify the Credit Needs of the Community

As part of the CRA performance evaluation, examiners are required to conduct community
contacts. According to DCA management, community contacts are an integral part of the CRA
examination planning process because they are designed to help to identify the lending needs of
a community. Also, according to the DCA Large Bank Reference Guide (dated December 19,
1997), establishing that examiners met with representatives of the community to better
understand the needs of the assessment area and obtain public perceptions of the institution lends
greater support to the assigned ratings.

The community contact procedures contained in the FDIC Compliance Examination Manual
provide examiners with detailed instructions related to:

   •   how to prepare for contacts, including the background information that should be
       assembled;
   •   the specific types of potential contacts, such as local community groups, governmental
       entities, financial intermediaries, civil rights and consumer rights groups, and business
       and labor groups;
   •   detailed questions to ask during the interview, based on the varying types of contacts; and
   •   how to document new contacts, or update or supplement existing community contact
       forms.

During our review, we found that only 8 PE reports out of 57 in the sample contained summaries
of the discussions held with community contacts. Although 2 additional PE reports in the sample
referred to the community contacts, the reference was limited to one specific aspect of the bank’s
lending activity, and a summary of the information received was not provided. We also
reviewed the Pre-Examination Planning memos we received for 50 of the PEs in our sample and
determined that in 8 cases there was no mention of whether or not the examiners intended to
conduct community contacts. In addition, in 16 cases the examination hour tracking reports did
not reflect that any hours had been spent by examiners conducting community contacts.


                                                 11
According to the DCA field office supervisors and examiners we interviewed, the information
obtained from community contacts is not always useful. One field office supervisor stated that:
(1) the community contact form used during interviews is not designed to obtain the type of
information that would be useful during the evaluation and should be revised and (2) the
examiners should be given some type of interview skills training to assist them in obtaining
pertinent information. According to the examiners we interviewed, the actual amount of time
spent by examiners in identifying and conducting community contacts can be significant, and the
examiners can devote a great deal of time to educating the contact person about the FDIC rather
than obtaining significant data. Examiners also informed us that it is very difficult and very time
consuming to identify appropriate community contacts, particularly for banks located in rural
areas. It was suggested that the function could be better handled by the DCA Community
Affairs Officers at the regional office level. In addition, examiners stated that contacts are
sometimes reluctant to provide information, and that often the data obtained from the contacts is
not very informative.

DCA management informed us that community contacts are a very important aspect of the CRA
performance evaluation because examiners need this type of information to determine the scope
of the evaluation and to assess bank performance in view of the community’s needs. The DCA
Director stated that it is important for the examiners to make these contacts and the Division is in
the process of revising the guidance related to community contacts. In addition, a Federal
Financial Institutions Examination Council interagency project has been initiated to revise the
forms used to record the information obtained during community contacts.

Limited Comparative and Analytical Data for Small Business Analyses

Although the PE reports provided data related to the bank's lending performance, they did not
fully discuss lending opportunities or discuss the bank's small business lending performance in
relation to data for peer or similarly-situated institutions, or the average size of businesses in the
assessment area.

The Large Bank Reference Guide directs examiners to describe in the PE report the thought
process behind their conclusions by explaining the relevant factors considered and describing the
basis for their conclusions, to better enable the public to understand the examiner's rationale. It
also states that examiners should stratify income levels according to information obtained in the
performance context relative to the average size of businesses or farms in the assessment area.
The Guide describes well-written PE reports as those that were supported using information from
the performance context.

We reviewed the small business lending analyses for the 19 large banks and the 9 small banks in
our sample that were Home Mortgage Disclosure Act (HMDA) reporters. For 12 of the large
banks and all 9 of the small banks, the PE reports did not contain aggregate small business/farm
data. We also noted that for the 19 large banks and the 9 small bank PE reports, no additional
analysis or insightful information was included in the small business/farm analyses related to the
bank’s performance in relation to its competition or local lending opportunities. The analyses
typically contained comments that only reiterated what was in the charts used to present the
bank’s lending information.



                                                  12
In most cases, the PE reports provide demographic and economic data in the sections of the
reports that describe the bank and its assessment area. Also, in some instances the examiners
provided the reasons for missing comparative data, such as extenuating circumstances due to the
bank’s performance context. In these cases, the information needed to understand the
examiner’s rationale for a rating was not included in the small business analyses.

According to DCA staff, one reason why the PE reports do not always contain informative
analyses of small business and farm loans, even when these loan products appear to be material
to the institution’s loan portfolio, is the lack of comparative data available to assist the examiners
in analyzing these lending areas. Although the PE reports provided some data related to the
bank's small business or farm lending performance, they did not fully discuss the lending
opportunities or the bank's lending performance in relation to peer or similarly-situated
institutions, or the average size of businesses in the assessment area.

During discussions with field office examiners, concerns were expressed about the adequacy of
data for reviews and analyses and the difficulty in obtaining comparative data. Examiners also
expressed the need for additional guidance and specialized training related to identifying and
analyzing the types of data needed to conduct small business analyses, particularly for small
banks not located in metropolitan statistical areas. It was also stated that small business analyses
are not a good indicator of a small bank’s performance due to the lack of aggregate data to use
for comparative purposes.

To assist examiners in conducting CRA performance evaluations, DCA initiated the Backroom
Operations Assessment Team program (BOAT) in 1999. DCA created BOAT to reduce the time
its examination staff spends doing “backroom operations" in connection with the examination
process, such as collecting comparative information for analysis. The BOAT goals include:

   •   focusing the examiner’s time and expertise on analyzing data rather than collecting data,
   •   providing a more efficient means of data collection and manipulation, and
   •   promoting consistency regarding the data used by examiners in pre-examination
       planning.

Final implementation of the program has been delayed primarily because the current CRA
Tactician software contract is due to expire by the end of the year. Because the BOAT program
will depend heavily on the information generated by the software, it appears prudent to wait until
a new contractor is in place before BOAT training is started.

Recommendations:

The use of community contacts is a critical part of the CRA evaluation procedure. Input from
the community is vital to understanding the community needs and an institution’s efforts to meet
those needs. In addition, PE reports that provide data related to the banks’ lending opportunities
and performance as compared to local competitors provides the reader a better understanding of
the basis for the examiners’ conclusions. To enhance the support for CRA PE report conclusions
through the use of examiner contacts with community organizations and leaders and the use of
comparative analytical data, we recommend that the Director, DCA:


                                                 13
(2) Require examiners to include a separate section in the PE to summarize the results of the
    data obtained from community contacts.

(3) Revise the policy related to community contacts to eliminate certain qualifiers (such as "if
    relevant" or "if any") that allow examiners to avoid including information gathered from
    community contacts in the PE reports.

(4) Require that the PE reports provide data on the scope of the small business/small farm
    lending reviews and the basis for the examiners’ conclusions.

CONTROLS OVER CRA EXAMINATIONS NEED TO BE ENHANCED

DCA lacks sufficient internal controls over the review of performance evaluations and the
maintenance of supporting documentation to ensure consistent PE presentations and to ensure
adequate analyses are conducted to support the PE conclusions. We noted that (1) there was
little evidence the PE reports had been reviewed for control purposes and (2) the workpapers
were not maintained in a manner that would readily support the examiner's ratings decisions.
We believe the lack of certain controls contributed to the inconsistencies we identified in CRA
performance evaluation reports (PE reports).

Performance Evaluation Review Process

According to the FDIC Compliance Examination Manual, Appendix K, the Examiner-in-Charge
is ultimately responsible for the completeness and accuracy of both the Report of Examination
and the supporting workpapers. DCA procedures do not require formal supervisory reviews of
the PE reports, and the review process is not consistent among regional offices or field offices.
During our review, we determined that the Field Office Supervisors (FOSs) are usually involved
in the pre-planning phase of the evaluation and will review and approve the pre-examination
planning (PEP) memos before the start of the evaluations. However, no formal review is
required upon completion of the PE reports. According to FOSs we interviewed, in some cases
the PE reports are not reviewed before being finalized and sent to the Regional Office. Also, the
FOSs generally do not review the underlying documentation related to the PE reports, as this is
considered the responsibility of the examiners.

Regional office review examiners are responsible for reviewing PE reports upon completion at
the field office level. During discussions with regional office review examiners, we were told
that their reviews of the PE reports include reviewing the PE for content, compliance with
procedures, consistency, readability, understandability, and to ensure that assigned ratings are
adequately supported by the information in the PE reports. However, the review examiners do
not conduct quality control reviews of underlying data such as the Call Report data or detail on
the bank’s loan portfolio.

One of the three regional offices in our review has a Field Office Review Guidelines Manual for
review of all compliance examination reports. However, upon review of the manual, we
determined that the guidelines do not specifically address CRA performance evaluations, and a
review of underlying data such as call data, loan portfolio, or PEP memos is not required.



                                                14
In a second regional office, field offices use a Compliance Report of Examination Review Form.
According to the form, its purpose is to provide constructive feedback on examinations. The
form contains the following 6 items for the reviewer to address:

   •   Assigned ratings were adequately supported and the overall tone and language of the
       report was consistent with the findings.
   •   Outstanding formal/informal enforcement actions and/or agreements to make Truth in
       Lending restitution were adequately addressed.
   •   Write-ups were clear, well supported and completed according to policy.
   •   The report was checked for spelling and formatting errors, tie-ins between pages,
       mathematical calculations, and appropriate grammar and sentence structure.
   •   The report was completed and submitted to the Regional Office within established and
       reasonable time frames.
   •   Substantive changes made to this report were discussed by telephone with the Examiner-
       in-Charge.

The Compliance Report of Examination Review Form does not specifically address CRA
performance evaluations. The review requirements of the form appear to focus on content,
readability, and timing issues. The form does not require the review of any of the underlying
documentation used to rate the institution, such as Call Report data, demographic information,
comparative data for similarly-situated institutions, assessment area aggregate data, or
community contacts.

Optional Workpaper Requirements

The FDIC Compliance Examination Manual states that examiners should prepare a summary of
each regulation reviewed or each task performed, documenting the scope, time period,
documents reviewed, and examiner conclusions. The manual also states that the workpapers
provide a written record for the examiner's decisions and analysis of violations; comments and
conclusions cited in the Report of Examination; and documentation of the examination
procedures performed, compliance violations, and identified program weaknesses. Specifically,
the FDIC Compliance Examination Manual, Appendix K, entitled Standardized Workpapers,
states the following:

       The use of standardized workpapers is optional. Documentation should contain sufficient
       information to enable an examiner having no previous connection with the examination
       to ascertain from them the evidence that supports the examiner's significant conclusions,
       judgments, and cited violations…. Workpapers which thoroughly and accurately
       document the criticisms and weaknesses of a financial institution are necessary to support
       any subsequent enforcement action or possible appeals of material supervisory
       determination.

During our review of the CRA examination workpaper files for the banks in our sample, we
noted that the workpapers are not maintained in a manner that could be readily used to support
the conclusions in the CRA performance evaluations. Based on our review of workpapers for 31
of the 57 banks in our sample, we noted that the following documents were not always included


                                               15
in the workpapers to support the examiners' conclusions or to document management's review of
the PE reports:

       Not Included in Workpapers                                  Number of PEs
       Examiner Comments and Conclusions                                22
       Regional Office Review Examiner Comments                         21
       Draft PE with Field Office Supervisor Comments                   20
       Written Examiner Summaries                                       18
       Staff/Examination Hours                                           9

Since workpaper requirements are optional, the workpapers do not always provide a clear picture
of the examination process. Consequently, it was difficult to determine whether the appropriate
analyses were conducted to ensure an accurate measure of the banks' performance. According to
DCA review examiners and field office supervisors, workpaper reviews were not essential, the
workpaper requirements contained in the FDIC Compliance Examination Manual are optional,
and the PE reports should be written in a manner that would provide enough detail to support the
conclusions in the report.

Recommendations:

Supervisory reviews of CRA PE reports and supporting workpapers are an essential control to
ensure the reliability of the ratings assigned. Consequently, controls over the CRA examination
process should be established and consistently applied. To improve the supervisory review
process, we recommend that DCA:

(5) Establish minimum guidelines for all Field Office Supervisors (FOSs) and Regional Office
    Review Examiners (REs) to follow in conducting their quality assurance reviews of PE
    reports.

(6) Require that the FOSs and REs document their quality assurance reviews of PE reports.

(7) Establish a requirement for minimum workpaper standards, including a requirement that the
    workpapers contain certain documents to support PE report conclusions.

CORPORATION COMMENTS AND OIG EVALUATION

On May 12, 2000, we provided a draft report to DCA for review and comment. We received a
written response from management on June 21, 2000. However, the response did not include all
elements required for a management decision on our recommendations. On July 14, 2000,
subsequent to the issuance of our report and discussions with DCA staff and management, the
Director, DCA, provided a revised written response to the draft report. The response is presented
in Appendix III to this report.

The Director agreed to implement six of our seven recommendations. Action on these
recommendations will be taken in conjunction with actions stemming from a DCA task force
which is conducting a comprehensive review of DCA CRA performance evaluation reports. The



                                               16
Director did not agree with our recommendation to include a separate section in each
performance evaluation report on the results of community contacts. Instead, DCA will be
considering alternative means to improve the presentation of data gleaned from community
contacts.

Appendix IV presents management’s planned actions on our recommendations and shows that
there is a management decision for each of the seven recommendations.




                                             17
                                                                                                       APPENDIX I


    COMMUNITY REINVESTMENT ACT PERFORMANCE EVALUATION CRITERIA


      TYPE OF
                                                      PERFORMANCE CRITERIA
    EVALUATION
                           LENDING TEST
LARGE BANK                 q Volume of lending activity in the assessment area
                           q Geographic distribution of loans, including proportion within an
                             institution's assessment area and dispersion among geographies of different
                             income levels
                           q Distribution of loans based on borrowers of different income levels and
                             small businesses and farms of different sizes
                           q Community development loans
                           q Innovative or flexible lending practices


                           INVESTMENT TEST
                           q Number and dollar amount of qualified investments
                           q Innovativeness and complexity of qualified investments
                           q Responsiveness to community development needs
                           q Degree to which investments are not provided by private investors


                           SERVICE TEST
                           q Distribution of branches
                           q Record of opening and closing branches
                           q Availability and effectiveness of alternative systems for delivering retail
                              bank services to low- and moderate-income people and geographies
                           q Range of services provided and degree to which services meet the needs of
                              the community
                           q Extent of community development services provided
                           q Innovativeness and responsiveness of community development services


                           LENDING TEST
SMALL BANK 3               q Loan-to-deposit ratio
                           q Percentage of loans in the institution's assessment area
                           q Geographic distribution of loans
                           q Distribution of loans based on borrowers of different income levels and
                             businesses and farms of different sizes
                           q Action taken in response to CRA complaints




3
 A small institution is defined as one that, as of December 31 of either of the prior two calendar years, had total
assets of less than $250 million and was either independent or an affiliate of a holding company that had total
banking and thrift assets of less than $1 billion.


                                                          18
                                                                  APPENDIX II


DESCRIPTION OF AUDIT SAMPLE AND 1998 CRA EXAMINATION RATINGS



                            1998 CRA EXAMINATIONS
FDIC-SUPERVISED BANKS                                   NUMBER
As of January 1, 1998                                     6,099
As of December 31, 1998                                   5,882

CRA EXAMINATIONS STARTED
                                                         1,983
JANUARY 1 – DECEMBER 31, 1998

1998 CRA RATINGS ASSIGNED                      NUMBER        PERCENT
Outstanding                                       438          22%
Satisfactory                                     1512          76%
Needs to Improve                                   30           2%
Substantial Noncompliance                           3           0%
                                AUDIT SAMPLE
BANK RATINGS                                   LARGE    SMALL     TOTALS
Outstanding                                       6       10        16
Satisfactory                                     16       19        35
Needs to Improve                                  3        3         6
Substantial Noncompliance                         0        0         0
TOTALS:                                          25       32        57




                                       19
                                                                                               APPENDIX III
                                           CORPORATION COMMENTS

Federal Deposit Insurance Corporation
550 17th Street NW, Washington, DC 20429                                   Division of Compliance and Consumer Affairs



                                                           July 14, 2000


TO:                 David H. Lowenstein, Assistant Inspector General
                    OIG Office of Audits

FROM:               Stephen M. Cross, Director
                    Division of Compliance and Consumer Affairs

SUBJECT:            Response to Draft Report Entitled: Audit of the DCA CRA Examination Process

As you know, the Division of Compliance and Community Affairs (DCA) responded on June 21, 2000 to
your draft report, Audit of the Division of Compliance and Consumer Affairs Community Reinvestment
Act Examination Process. Earlier this week, Tim Burniston and I met with Steve Switzer, Vernon Davis,
and Vijay Deshpande to discuss the report and the Division’s response to it, among other matters. We
appreciate this opportunity to clarify the DCA management position about the recommendations in your
report.

The report makes seven recommendations pertaining to the CRA examination process. The Division
agrees with six of the seven recommendations. With respect to recommendation 2, we agree with the
OIG conclusion that we need to improve the communication of information obtained from community
contacts. However, at present we believe it is best to incorporate that information throughout the PE
report where relevant, rather than segregate that information into a separate section of the report. In fact,
there was a great deal of discussion about this matter when the FFIEC agencies were developing the
interagency CRA examination procedures and PE formats, and we jointly decided that our present
approach was preferable.

DCA will implement specific actions on each of the six other recommendations in your report by June 30,
2001. Specifically, at my direction, DCA has initiated a task force to perform a comprehensive review of
its CRA Performance Evaluations. The task force, part of DCA’s enhancement to its quality assurance
program, is performing a nationwide review of up to 400 PEs from all 8 DCA regions. The review will
focus on a wide range of issues relating to both the examination and the PE, including those underlying
the recommendations made in your report. Outcomes from this task force will include recommendations
for improving:

•    the guidance provided to examiners (recommendation 1)
•    the incorporation of information and data gleaned from community contacts (recommendation 2)
•    the policy with respect to community contacts (recommendation 3)
•    the policy with respect to the scope of small business/small farm reviews (recommendation 4)
•    the guidelines for quality assurance reviews of PE reports (recommendation 5)
•    the documentation for quality assurance reviews of PE reports (recommendation 6), and
•    the minimum workpaper standards (recommendation 7)

We will provide the OIG with specific actions addressing the recommendations in this report following
the internal review of PE reports currently underway. We plan to complete this PE review and have
initial training for all DCA examiners – that will include the issues raised in the OIG report – at our
December 2000 training conference, with full implementation no later than June 30, 2001. We invite the



                                                     20
OIG to attend this session of the training conference and make a presentation on this audit or any others
either completed or anticipated. Please let us know if you would like to participate.

If you have any questions, please feel free to contact me at (202) 942-3080 or Jim Deveney at (202) 942-
3096.




                                                    21
                                                     APPENDIX IV
                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

   § the specific corrective actions already taken, if applicable;
   § corrective actions to be taken together with the expected completion dates for their implementation; and
   § documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on management’s written response to our report and subsequent discussions with management
representatives.




                                                                      22
                                                                             Documentation That                Management
 Rec.                                                         Expected          Will Confirm        Monetary
         Corrective Action: Taken or Planned/Status                                                            Decision: Yes
Number                                                     Completion Date                          Benefits
                                                                                Final Action                      or No

         Improve the guidance provided to examiners
                                                                             Revised Guidance to
  1      for consistent examination procedures and          June 30, 2001                            None          Yes
                                                                             Examiners
         reports.

         Improve the incorporation of information and                        Improved Performance
  2                                                         June 30, 2001                            None          Yes
         data gleaned from community contacts.                               Evaluation Reports

         Improve the policy with respect to community
  3                                                         June 30, 2001    Revised Policy          None          Yes
         contacts.

         Improve the policy with respect to the scope of
  4                                                         June 30, 2001    Revised Policy          None          Yes
         small business/small farm reviews.

         Improve the guidelines for quality assurance
  5                                                         June 30, 2001    Improved Guidelines     None          Yes
         reviews of performance evaluation reports.
         Improve the documentation for quality
                                                                             Improved
  6      assurance reviews of performance evaluation        June 30, 2001                            None          Yes
                                                                             Documentation
         reports.
                                                                             Improved Workpaper
  7      Improve the minimum workpaper standards.           June 30, 2001                            None          Yes
                                                                             Standards




                                                                  23
